   DEPARTMENT OF HOMELAND SECURITY

        Office of Inspector General



           Emergency Preparedness and
         Response Could Better Integrate
       Information Technology with Incident
             Response and Recovery




      Office of Information Technology
OIG-05-36                     September 2005
                                                                       Office of Inspector General

                                                                       U.S. Department of Homeland Security
                                                                       Washington, DC 20528



                                                                      Homeland
                                                                      Security

                                              Preface

The Department of Homeland Security (DHS) Office of Inspector General (OIG) was established by
the Homeland Security Act of 2002 (Public Law 107-296) by amendment to the Inspector General
Act of 1978. This is one of a series of audit, inspection, and special reports prepared by our office as
part of our DHS oversight responsibility to promote economy, effectiveness, and efficiency within
the department.

This report assesses the strengths and weaknesses of the information technology that the Emergency
Preparedness and Response Directorate uses to support incident response and recovery operations. It
is based on interviews with employees and officials of relevant agencies and institutions, direct
observations, and a review of applicable documents.

The recommendations herein have been developed to the best knowledge available to our office, and
have been discussed in draft with those responsible for implementation. It is our hope that this
report will result in more effective, efficient, and economical operations. We express our
appreciation to all of those who contributed to the preparation of this report.




                                              Richard L. Skinner
                                              Inspector General
Contents

  Executive Summary ....................................................................................................................... 1

  Background .................................................................................................................................... 3

  Results of Audit .............................................................................................................................. 6

          Challenges Remain in Aligning EP&R’s IT Approach with DHS Mission ......................... 6
          Recommendation ..................................................................................................................14

          IT User Support Could be Improved .................................................................................. 14
          Recommendation ..................................................................................................................18

          Systems to Support Response and Recovery Operations Need Improvement ................... 18
          Recommendations.................................................................................................................34

  Management Comments and OIG Evaluation… .......................................................................... 34

Appendices
  Appendix A:            Scope and Methodology.....................................................................................            44
  Appendix B:            Management Comments.....................................................................................              46
  Appendix C:            Major Report Contributors .................................................................................           59
  Appendix D:            Report Distribution.............................................................................................      60

Abbreviations

  ADD                          Automated Deployment Database
  CIO                          Chief Information Officer
  DHS                          Department of Homeland Security
  EP&R                         Emergency Preparedness and Response Directorate
  FEMA                         Federal Emergency Management Agency
  GAO                          Government Accountability Office
  IFMIS                        Integrated Financial Management Information System
  IT                           Information Technology
  LIMS III                     Logistics Information Management System III
  NEMIS                        National Emergency Management Information System
  OIG                          Office of Inspector General




                      Emergency Preparedness and Response Could Better Integrate Information Technology
                                            with Incident Response and Recovery
Contents


Figures
  Figure 1    EP&R/FEMA Organization .....................................................................................3

  Figure 2    FEMA Regional Offices ..........................................................................................4

  Figure 3    DHS Mission and Response and Recovery Goals and Metrics ...............................7

  Figure 4    DHS and FEMA Response and Recovery Metrics Not Aligned .............................8

  Figure 5    DHS Target Response Metrics...............................................................................10

  Figure 6    DHS Target Recovery Measures ...........................................................................11

  Figure 7    Four Category 3+ Hurricanes in 2004 ...................................................................15

  Figure 8    Disaster Field Office in Orlando, Florida ..............................................................16

  Figure 9    Travel Trailers Pick Up Supplies for Disaster Victims .........................................29




             Emergency Preparedness and Response Could Better Integrate Information Technology
                                   with Incident Response and Recovery
OIG
Department of Homeland Security
Office of Inspector General

Executive Summary
                          Providing disaster recovery assistance and responding to the emergency needs
                          of victims of four consecutive hurricanes in 2004 was a major challenge for
                          the U.S. 1 When devastation from such incidents is so great that state
                          resources cannot handle the response and recovery efforts, states turn to the
                          federal government for assistance. The Federal Emergency Management
                          Agency (FEMA), now part of the Emergency Preparedness and Response
                          (EP&R) Directorate of the Department of Homeland Security (DHS), is
                          responsible for coordinating disaster relief efforts across federal, state, and
                          volunteer organizations, such as the American Red Cross. FEMA relies
                          heavily on a range of information technology (IT) systems and tools to carry
                          out its response and recovery operations. Strategic management of these
                          assets is important to ensure that the technology can perform effectively
                          during times of disaster and tremendous stress.

                          As part of our ongoing responsibility to assess the efficiency, effectiveness,
                          and economy of departmental programs and operations, we conducted an
                          audit of the information and technology that EP&R uses to support incident
                          management. The objectives of the audit were to (1) review the directorate’s
                          approach for responding to and recovering from terrorist attacks, major
                          disasters, and other domestic emergencies, (2) determine the effectiveness of
                          guidance and processes to support IT users during incident management, and
                          (3) evaluate existing and proposed systems and other technologies used to
                          accomplish EP&R’s response and recovery mission. The scope and
                          methodology of this review are discussed in Appendix A.

                          Strategic IT management is essential to the successful accomplishment of
                          EP&R’s response and recovery mission. EP&R’s IT approach has met the
                          disaster management challenges to date, including the four major hurricanes
                          of 2004. However, a number of information and technology management
                          issues limit the directorate’s effectiveness.

1
 The 2004 hurricanes that made landfall in Florida and the Gulf Coast included Charley on August 13th, Frances on
September 5th, Ivan on September 16th, and Jeanne on September 26th.

                    Emergency Preparedness and Response Could Better Integrate Information Technology
                                          with Incident Response and Recovery


                                                        Page 1
      For example, the EP&R Chief Information Officer (CIO) is making progress
      with respect to IT planning, including the development of the agency’s first IT
      strategic plan. However, while the IT plan aligns with FEMA’s outdated
      strategic plan, it does not reflect FEMA’s integration into DHS and therefore
      may not support DHS’ strategic goals. Additionally, to better align EP&R’s
      IT with the agency’s strategic direction, integration with evolving DHS-wide
      initiatives, such as eMerge2 and MAXHR, will prove challenging.

      Further, EP&R CIO support to IT users could be improved. EP&R CIO staff,
      including the national IT helpdesk, provided significant service during the
      2004 hurricanes. However, additional guidance and training for systems users
      is necessary to ensure that they have the knowledge and information needed to
      perform their jobs. The EP&R CIO’s office maintains up-to-date—and often
      online—systems procedure manuals and guidance, but FEMA field personnel
      are often unaware of these materials. In addition, the IT manuals online
      describe the procedures necessary to complete actions in the systems, but they
      do not contain the business context for when or how the procedures should be
      used. Although EP&R’s custom, complex systems require significant
      amounts of front-end instruction, users said that they received insufficient
      training.

      Currently, EP&R systems are not integrated and do not effectively support
      information exchange during response and recovery operations. Also, EP&R
      has not fully updated its enterprise architecture to govern the IT environment.
      As a result, during significant disaster response and recovery operations, such
      as the 2004 hurricanes, IT systems cannot effectively handle increased
      workloads, are not adaptable to change, and lack needed real-time reporting
      capabilities. Such problems usually are due to FEMA’s focus on short-term
      IT fixes rather than long-term solutions. Inadequate requirements definition,
      alternatives analysis, and testing prior to systems deployment are
      characteristics of this reactive IT management approach.

      Although EP&R is working to introduce and web-enable systems to resolve
      disparity between its current IT environment and DHS expectations,
      additional measures are needed. EP&R would benefit from strategically
      managing IT by aligning its IT planning with DHS’ direction as well as
      ensuring systems users receive more timely training and communication.
      Further, once broad-based requirements are fully defined and documented,
      and alternatives are analyzed, EP&R will be in a better position to complete
      an enterprise architecture, and test and deploy the most appropriate
      technology needed to support its response and recovery mission.

Emergency Preparedness and Response Could Better Integrate Information Technology
                      with Incident Response and Recovery


                                   Page 2
Background
                         Following the terrorist attacks of September 11, 2001, DHS was established to
                         prevent and deter terrorism, and to protect against and respond to threats and
                         hazards to the nation. The Homeland Security Act of 2002 2 assigns
                         responsibility to the EP&R directorate to lead federal disaster response and
                         recovery activities. FEMA, transferred in its entirety into the EP&R
                         directorate, is directly responsible for executing this aspect of DHS’ mission.
                         The organization chart below illustrates EP&R and FEMA within the context
                         of the DHS organization. (See Figure 1).

                                                                                          DHS Secretary
                                                                                         Deputy Secretary




                                                    Under Secretary for             Under Secretary for Emergency
                                                      Management                     Preparedness and Response



                                       DHS Chief Information
                                             Officer




                           Chemical, Biological, Radiological         Nuclear Incident                          Domestic Emergency            National Domestic
                            and Nuclear Response Teams                Response Team                                  Support                  Preparation Office




                                                                                    Federal Emergency Management
                                                                                               Agency




                                                                  Headquarters             Headquarters             Headquarters Mitigation       Headquarters
                             Headquarters Information                                     Recovery Division
                                                                Response Division                                         Division            Preparedness Division
                               Technology Services
                               Division (CIO office)



                         Figure 1: EP&R/FEMA Organization

                         When devastation exceeds the capability and resources of local and state
                         governments to respond they turn to the federal government for assistance.
                         The Stafford Act 3 gives FEMA the authority to lead the disaster response and

2
 Public Law 107-296, November 25, 2002.
3
 Robert T. Stafford Disaster Relief and Emergency Assistance Act, as amended by Public Law 106-390, October 30,
2000.

                   Emergency Preparedness and Response Could Better Integrate Information Technology
                                         with Incident Response and Recovery


                                                                        Page 3
      recovery operations of 28 major federal agencies and departments, the
      American Red Cross, and other volunteer organizations. FEMA supplies
      immediate needs, such as ice, water, food, and temporary housing. FEMA
      also provides financial assistance to individuals who have sustained damage to
      their personal property, and to state and local governments for damage to
      public property.

      FEMA has ten regional offices across the country to assist the states in
      disaster management. The map below depicts this regional office structure.
      (See Figure 2).




      Figure 2: FEMA Regional Offices

      Emergency and IT Support Capabilities

      EP&R provides an array of emergency operations, facilities, and systems to
      help manage disasters. FEMA has four National Processing Service Centers
      which handle telephone registration and process victims’ claims for disaster
      assistance, as well as five geographically-dispersed Mobile Emergency
      Response Support operations which provide initial support for on-site disaster
      management. This mobile support includes providing voice, data, and video
      capabilities for emergency managers, as well as services such as water
      purification and power generation. Immediately following this initial
      response, FEMA establishes disaster field offices and disaster recovery


Emergency Preparedness and Response Could Better Integrate Information Technology
                      with Incident Response and Recovery


                                   Page 4
      centers to assist victims on a long-term basis. Emergency operations centers
      at FEMA headquarters and at the Mount Weather facility near Bluemont,
      Virginia, coordinate response and recovery operations nationwide.

      In FY 2005, the EP&R directorate’s CIO had a budget of approximately $80
      million and a total of about 400 full-time and temporary employees. The
      CIO’s office is responsible for designing, developing, testing, implementing,
      and maintaining the operation of FEMA’s systems, including the following
      four key applications:

      •   National Emergency Management Information System (NEMIS) is the
          backbone IT system for response and recovery operations. FEMA uses
          NEMIS to electronically enter, record, and manage information regarding
          registered applicants for disaster assistance, obligations and payments,
          mission assignments, and grants.

      •   Integrated Financial Management Information System (IFMIS) forwards
          financial information to the Department of Treasury for payment of
          disaster assistance claims.

      •   Logistics Information Management System III (LIMS III) maintains the
          inventory of equipment and supplies.

      •   Automated Deployment Database (ADD) is used to identify and deploy
          personnel to disaster sites.

      With the exception of NEMIS, these systems were not developed by and do
      not solely belong to IT. However, IT partners with EP&R program areas in
      providing support for these systems.

      The CIO’s office manages and maintains the IT infrastructure, i.e., networks,
      databases, desktops, and telephone systems, to support operations of
      permanent facilities at FEMA headquarters and regional locations. The CIO
      also is responsible for providing the IT infrastructure to support hundreds of
      emergency personnel at temporary disaster field offices and recovery centers,
      often in remote locations. This involves running cable, establishing networks,
      supplying wireless connectivity, and installing equipment for information
      processing and data and voice communications. In addition, a national IT
      helpdesk assists users in various ways such as providing and maintaining
      system accounts, ensuring remote access, troubleshooting systems problems,
      and making referrals to engineers for systems fixes.


Emergency Preparedness and Response Could Better Integrate Information Technology
                      with Incident Response and Recovery


                                   Page 5
                         Prior assessments have identified concerns with several aspects of FEMA’s IT
                         management. Specifically, in an August 2001 report, 4 the GAO identified
                         issues with NEMIS internal controls, reliability, usability, and training. A
                         July 2004 GAO report 5 discussed FEMA’s property management controls and
                         highlighted concerns with asset accountability and the accuracy of data
                         recorded in the LIMS III system. In that report, GAO recommended that
                         FEMA’s property system be linked to its acquisition and financial systems so
                         that certain key information could be available for effective property
                         management. In December 2003, we issued a report 6 on the NEMIS system
                         access controls, and identified related issues concerning separation of duties,
                         audit trails, and training which needed to be monitored. Further, a July 2004
                         DHS OIG report 7 discussed the need for component CIOs, such as the EP&R
                         CIO, to report to the department’s CIO on IT issues to help ensure that
                         strategies are aligned and systems are consolidated for more effective use of
                         IT assets across the department.


Results of Audit
Challenges Remain in Aligning EP&R’s IT Approach with DHS Mission
                         Information resource management plans support an agency’s strategic plan for
                         fulfilling its mission. The 2004 DHS strategic plan contains specific response
                         and recovery goals and metrics. FEMA’s strategic plan, however, is not
                         aligned with them. FEMA developed its strategic plan prior to becoming part
                         of the new department and has not updated it since then. EP&R’s IT plan
                         aligns with FEMA’s outdated plan, but does not line up fully with goals and
                         measures defined in the more recent DHS plan. As a result, EP&R’s IT
                         systems approach may not support progress toward meeting DHS goals.
                         Updating its strategic and IT plans to reflect evolving DHS-wide direction and
                         initiatives poses a major challenge for EP&R.




4
  Disaster Assistance: Improvement Needed in Disaster Declaration Criteria and Eligibility Assurance Procedures,
GAO-01-837, August 2001.
5
  Federal Emergency Management Agency: Lack of Controls and Key Information for Property Leave Assets Vulnerable
to Loss or Misappropriation, GAO-04-819R, July 2004.
6
  Audit of the National Emergency Management Information System Access Control System, DHS-OIG-04-02, December
2003.
7
  Improvements Needed to DHS’ Information Technology Management Structure, DHS-OIG-04-30, July 2004.

                   Emergency Preparedness and Response Could Better Integrate Information Technology
                                         with Incident Response and Recovery


                                                      Page 6
                               Strategic and IT Plans Not Fully Aligned

                               FEMA’s strategic and IT plans do not align completely with DHS’ strategic
                               plan, providing little assurance that the agency can monitor and achieve the
                               emergency management goals established by the department. Pursuant to
                               requirements of the Government Performance and Results Act of 1993, 8 DHS
                               developed its strategic and performance plans which, taken together, establish
                               its mission and outline goals and metrics for its disaster response and recovery
                               efforts. According to the EP&R CIO, FEMA participated in working groups
                               to help develop these DHS goals and objectives and owns all the metrics that
                               support the response and recovery section of the DHS strategic plan. Goals in
                               the plans include leading, managing, and coordinating the national response
                               and recovery effort, and rebuilding communities after acts of terrorism,
                               natural disasters, or other emergencies. Corresponding metrics include
                               reducing response time for emergency personnel deployment and logistics as
                               well as reducing recovery assistance delivery costs and processing time. The
                               following diagram illustrates the alignment between these goals and metrics to
                               help ensure effective and efficient mission accomplishment. (See Figure 3).

                                                                                     DHS Mission
                                          Prevent and deter terrorist attacks and protect against and respond to threats and hazard to the nation
                                                                                       DHS Goals
                                                                                                                     Recovery Goal
                                                      Response Goal
                                                                                               Lead national, state, local private sector efforts to restore
                                Lead, manage, and coordinate the national response to acts
                                                                                               services and rebuild communities after acts of terrorism,
                                   of terrorism, natural disasters, or other emergencies
                                                                                                       national disasters, or other emergencies
                                                                                      DHS Metrics
                                                   Response Metric                                                    Recovery Metric
                                • Maximum response time in hours for emergency                    Progress toward providing recovery assistance at the
                                  response teams to arrive on scene                               2009 target level for non-catastrophic disasters.
                                • Average logistical response time in hours to provide            a) % of customers satisfied with IA
                                  essential services to an impacted community of 50,000
                                                                                                  b) % of customers satisfied with PA
                                  or less
                                                                                                  c) % reduction in program delivery costs for IA
                                                                                                  d) % reduction in program delivery costs for PA
                                                                                                  e) Reduction in IA processing cycle time
                                                                                                  f) % completion of disaster recovery plans



                               Figure 3: DHS Mission and Response and Recovery Goals and Metrics

                               Although Office of Management and Budget Circular A-11 directs that
                               component agencies create their own strategic plans linked to overarching

8
    Public Law 103-62.

                         Emergency Preparedness and Response Could Better Integrate Information Technology
                                               with Incident Response and Recovery


                                                                       Page 7
                          departmentwide plans, FEMA has not updated its strategic plan to reflect its
                          integration into the DHS organization. 9 FEMA developed its strategic plan
                          prior to implementation of the Homeland Security Act and the creation of
                          DHS. DHS has established specific metrics for response and recovery
                          response time, customer satisfaction, program delivery cost, and disaster
                          assistance cycle time. However, as demonstrated in Figure 4, FEMA’s
                          strategic plan fails to identify such metrics, and therefore is not in line with
                          DHS direction.

                                      DHS                                              FEMA
                                                        Response Metrics

                                   Response Time            Not Aligned       No Response Time Metric



                                                        Recovery Metrics

                              Customer Satisfaction         Not Aligned         Customer Satisfaction
                                                                                (No Specific Metrics)

                              Program Delivery Cost         Not Aligned        No Delivery Cost Metrics

                                                                                 Identifies Need for
                                Disaster Assistance         Not Aligned        Performance Standards
                                   Cycle Time                                  (No Standards Defined)




                          Figure 4: DHS and FEMA Response and Recovery Metrics Not Aligned


                          A planning official said that FEMA uses both the DHS strategic plan and
                          FEMA’s outdated plan. Use of both plans may lead to ambiguous guidance
                          and direction. For example, the two plans identify different metrics to
                          measure improvement in the federal government’s ability to respond quickly
                          when states are overwhelmed by a disaster. The DHS plan sets the goal of 12-
                          hour response time for emergency response teams and 24-hour logistics
                          response time by 2009. In contrast, FEMA’s plan establishes a goal to
                          respond concurrently to four catastrophic and twelve non-catastrophic
                          disasters by 2008. Although it began updating its strategic plan in mid 2004
                          to reflect the organizational changes and new performance expectations,


9
 Circular A-11, Part 6, Preparing and Submitting a Strategic Plan, Executive Office of the President, Office of
Management and Budget, June 2005.


                    Emergency Preparedness and Response Could Better Integrate Information Technology
                                          with Incident Response and Recovery


                                                         Page 8
                         FEMA put the updates on hold due to the need to shift resources to the 2004
                         hurricane response and recovery activities.

                         Further, the misalignment of DHS and FEMA strategic plans complicates
                         efforts to link IT initiatives to overarching mission direction. According to
                         the Paperwork Reduction Act 10 and the supporting Office of Management and
                         Budget Circular A-130 11 , each federal agency is required to develop an
                         Information Resource Management Plan to demonstrate how IT management
                         activities help accomplish an agency’s mission. The EP&R CIO
                         accomplished an important step by implementing FEMA’s first IT strategic
                         plan for FY 2005. However, the CIO’s IT plan maps to FEMA’s outdated
                         strategic plan rather than to the more recent DHS strategic plan. For example,
                         the IT plan identifies six strategic management initiatives, which it aligns to
                         the goals identified in the FEMA strategic plan; however, the initiatives do not
                         align completely to goals and metrics identified in DHS level planning. As a
                         result, the initiatives defined by the CIO organization may not support the
                         achievement of the response and recovery goals and metrics established by
                         DHS.

                         Performance Data Not Available from Systems

                         Federal regulations, including the Paperwork Reduction Act, require agencies
                         to use information resources to improve the efficiency and effectiveness of
                         their operations to fulfill their missions. However, EP&R’s IT systems do not
                         provide the data needed to support the response and recovery metrics
                         established by DHS effectively. Some of the metrics are IT-dependent, reliant
                         upon automated systems to capture quantifiable information with which to
                         measure performance in specific response and recovery activities. Where IT
                         systems do not provide the data for measuring performance, it is not possible
                         successfully to measure progress toward the achievement of specific goals,
                         and ultimately the agency’s mission.

                             Response Metrics

                         With regard to disaster response, DHS’ strategic plan identifies specific
                         performance indicators, such as the time it takes to deploy personnel and
                         assets to aid in a disaster. In 2004 DHS allotted 72 hours for providing both


10
  Public Law 104–13, May 22, 1995.
11
  Circular A-130, Memorandum for Heads of Executive Departments and Establishments, Management of Federal
Information Resources, Executive Office of the President, Office of Management and Budget, February 8, 1996.

                   Emergency Preparedness and Response Could Better Integrate Information Technology
                                         with Incident Response and Recovery


                                                      Page 9
                          emergency teams and essential services 12 to disaster areas; DHS expects to
                          significantly reduce this response time by 2009. The following diagram
                          illustrates DHS’ performance objectives for FEMA response time. (See
                          Figure 5).


                                                                     Response
                                                                      Metrics
                                   Emergency Team Deployment                            Logistics Management




                           Maximum response time in hours for              Average response
                                                                                    logistical time
                                                                                                response
                                                                                                    in hours
                                                                                                         timetoin hours to
                           emergency response teams to arrive on scene     provide essential services to an impacted
                                                                           community of 50,000 or less
                                        72 hours in 2004                                  72 hours in 2004



                                        12 hours by 2009                                 24 hours by 2009


                          Figure 5: DHS Target Response Metrics

                          However, measuring response time and progress toward achieving DHS
                          targets is problematic. FEMA’s systems for personnel deployment and
                          logistics do not easily track performance information. ADD, for example,
                          does not capture data on how long it takes for emergency personnel to arrive
                          at a disaster site. In other words, the system does not have a “stopwatch” to
                          measure the elapsed time between contacting personnel of their need to
                          deploy and their ultimate arrival at a disaster scene. Currently, program
                          officials must review information manually tracked either on paper or on
                          spreadsheets to determine response time, a very inefficient process. EP&R
                          plans to develop a new deployment management system to address this issue.

                          Similarly, LIMS III provides no tracking of essential commodities, such as ice
                          and water, needed by disaster victims. As a result, FEMA cannot readily
                          determine its effectiveness in achieving DHS’ specific disaster response goals
                          and whether or not there is a need to improve. FEMA is currently working to
                          establish a baseline for average response time in providing essential services,
                          beginning in 2006. FEMA officials said that they are pilot-testing a Total
                          Asset Visibility system to track shipment and distribution of essential
                          commodities such as ice, water, and food.
12
 Essential services are generally defined as life-saving commodities and emergency supplies including water, food, ice,
medical supplies, mobile homes, travel trailers, or other housing options.

                    Emergency Preparedness and Response Could Better Integrate Information Technology
                                          with Incident Response and Recovery


                                                           Page 10
          Recovery Metrics

      With regard to disaster recovery, DHS’ strategic plan identifies specific
      measures for delivering services to disaster victims. Although no baselines
      are available on the average cost or cycle time for providing assistance, DHS
      expects to reduce these averages by several percentage points by 2009. The
      diagram below identifies the performance goals for 2009. (See Figure 6).



                                                    Recovery
                                                     Metrics
                           Cost                                            Cycle Time




       Percentage reduction in program delivery           Reduction in Individual Recovery Assistance
       costs for Public and Individual Assistance         processing cycle time

              Baseline Unavailable in 2005                       Baseline Unavailable in 2005



                  8% reduction by 2009                              20% reduction by 2009


      Figure 6: DHS Target Recovery Measures

      However, such goals are futile without effective means to accomplish them.
      Currently, EP&R IT systems provide limited data to measure recovery
      assistance performance. For example, EP&R’s Recovery Division is using
      IFMIS to capture unit cost data on recovery assistance. However, according
      to several FEMA officials, this data is not available at a single point in IFMIS
      and must be manually calculated. Compiling this data requires significant
      time, effort, and resources because information for establishing unit costs for
      rent, IT, security, and other elements is pulled from different systems and
      files.

      Similarly, FEMA is working to establish a baseline for the average cycle time
      from a victim’s initial registration until disaster assistance payments are
      issued. Program officials said that, although NEMIS collects information on
      cycle time, this information is not readily or routinely available. These
      officials said that they must request EP&R’s IT division to access the system
      and compile weekly ad hoc reports to provide the information. Program
      officials said that additional information on subcomponents of the cycle time

Emergency Preparedness and Response Could Better Integrate Information Technology
                      with Incident Response and Recovery


                                        Page 11
                            would be useful, such as how long it takes a victim to register or get an
                            inspection after registration.

                            Officials in EP&R’s Recovery Division said that they are working to establish
                            baselines this year against which to measure progress in reducing cost and
                            time for delivering individual and public assistance. However, until FEMA’s
                            systems can capture the underlying performance data, the agency will be
                            unable to do so.

                            Challenges in Aligning IT with Evolving DHS Direction

                            In addition to addressing the need to align its strategic and IT planning with
                            DHS direction, EP&R faces the challenge of integrating its emergency
                            management approach with several emerging departmentwide initiatives.
                            Specifically, DHS implementation of the National Response Plan and the
                            National Incident Management System created new requirements that will
                            affect IT systems and processes. Additionally, the DHS Chief Financial
                            Officer’s efforts to provide integrated resource management must be taken
                            into consideration as EP&R moves forward in its approach to managing IT.

                                Impact of the National Response Plan and National Incident Management
                                System on EP&R IT

                            The National Response Plan provides the framework for federal coordination
                            with state, local, and tribal governments, as well as the private sector during
                            disasters. DHS implemented the National Response Plan in December 2004,
                            according to the Homeland Security Act of 2002 and Homeland Security
                            Presidential Directive 5. 13 The National Response Plan consolidates existing
                            federal government emergency response plans into a single, coordinated plan
                            to manage disaster response and recovery. This consolidated plan replaces the
                            Federal Response Plan, which FEMA previously used as the basis for
                            organizing its response and recovery operations. The new plan introduces
                            changes to the organizational structure for disaster management operations,
                            and will require software code updates to information systems.

                            For example, the NEMIS Access Control System assigns access rights to users
                            based on positions within the organization structure, which are defined in the
                            former Federal Response Plan. Moving to the National Response Plan has
                            changed this organizational structure and, consequently, affected NEMIS
                            Access Controls, requiring that new roles and rights be added to the system

13
     “Management of Domestic Incidents,” Homeland Security Presidential Directive 5, February 28, 2003.

                      Emergency Preparedness and Response Could Better Integrate Information Technology
                                            with Incident Response and Recovery


                                                         Page 12
      before NEMIS can be used to support the plan. One FEMA official was
      concerned that there are no funds available for correlating the organizational
      changes with IT processes. This official was unaware of any IT involvement
      in the National Response Plan development process. Consequently, FEMA’s
      IT managers now must identify ways to adapt existing systems to meet new
      response plan requirements.

      In conjunction with the National Response Plan, DHS developed the National
      Incident Management System in 2004 to provide guidance, such as common
      terminology and organizational processes, to enable first responders at all
      government levels to work together effectively during disasters. First
      responders include federal, state, local, and tribal governments and private
      sector and nongovernmental organizations. The National Incident
      Management System policy requires inter-operability of response structure,
      equipment, communications, qualifications, and certifications. According to
      National Incident Management System guidelines, maintaining an accurate
      picture of resource utilization is a critical component of incident management.
      The system requires standardized resource management across various first
      responder entities, as well as asset tracking over the lifecycle of an incident.

      LIMS III, FEMA’s current logistics system, does not provide the type of up-
      to-date resource management that the National Incident Management System
      requires. Resource tracking and management was the source of numerous
      problems during the Florida hurricanes, as will be more fully discussed in
      later sections of this report. However, not only is LIMS III not integrated with
      other systems within FEMA, it does not provide the capability to view and
      share resource information across federal, state, and local first responders.
      Personnel at nearly all sites that we visited commented on the need for an
      improved resource tracking system to support NIMS. A FEMA official said
      that system capacity requirements do not reflect the catastrophic magnitude of
      today’s threats, and that system upgrades and integration have not kept pace
      with recent organizational, business process changes, or operational concepts.

          Departmentwide Initiatives Affect EP&R IT

      DHS is developing two new departmentwide systems that have implications
      for EP&R IT management. Specifically, Electronically Managing Enterprise
      Resources for Government Effectiveness and Efficiency, known as eMerge2, is
      an ongoing project to consolidate and integrate DHS’ budget, accounting and
      reporting, cost management, asset management, and acquisitions and grants
      functions. In conjunction with eMerge2, DHS is also developing a
      departmentwide integrated human resource management system, the MAXHR

Emergency Preparedness and Response Could Better Integrate Information Technology
                      with Incident Response and Recovery


                                  Page 13
                  project. Taken together, the two projects will affect several of FEMA’s major
                  response and recovery IT systems. For example, eMerge2 will affect aspects
                  of FEMA’s financial system, as well as parts of its non-mission specific
                  logistics system. Likewise, eMerge2 is likely to have an impact on NEMIS’
                  grants functionality. Further, MAXHR may have a bearing on employee
                  management and deployment processes currently managed in ADD.

                  Once fully implemented, eMerge2 will likely affect FEMA’s current financial
                  system, grants management system, and aspects of its non-mission specific
                  logistics system. Although FEMA officials have actively participated in the
                  DHS Logistics Steering Committee to define eMerge2 development, some
                  officials have expressed concern that the eMerge2 effort does not address
                  some of their requirements. For example, these officials said that eMerge2
                  does not consider the complexity of FEMA’s disaster grants programs as
                  compared with standard grants processing. The limited time and resources to
                  successfully plan and transition to eMerge2 also troubled them. Conversely,
                  eMerge2 officials expressed concern that FEMA was not open to new ways of
                  thinking. As FEMA moves forward with improving existing systems and
                  pursuing new systems development, the EP&R CIO must continue to ensure
                  that the effects of DHS-wide initiatives, such as eMerge2 and MAXHR, are
                  considered and effectively support disaster response and recovery goals.

                  Recommendation

                  1. We recommend that, in keeping with legislative requirements, the Under
                     Secretary for EP&R update the FEMA strategic plan to support
                     achievement of DHS goals and ensure that all FEMA systems provide the
                     performance data necessary to measure progress toward achieving
                     response and recovery goals. Subsequently, direct the EP&R CIO to
                     update the IT strategic plan in line with the updated FEMA strategic plan.


IT User Support Could Be Improved
                  The EP&R CIO’s office provided significant customer support to IT users
                  assisting disaster response and recovery efforts related to the 2004 Florida
                  hurricanes. However, overall systems guidance and training could be
                  improved. Specifically, EP&R has reasonably up-to-date online systems
                  manuals, but these manuals are not adequate to support business processes.
                  Often unaware of the online manuals, field personnel used out-of-date hard
                  copy guidance to meet their needs. Although a number of users said that


            Emergency Preparedness and Response Could Better Integrate Information Technology
                                  with Incident Response and Recovery


                                              Page 14
                           EP&R training is good, funding restrictions limited the number of personnel
                           who received it, resulting in a lack of awareness of how the systems function
                           and a low comfort level in using those systems. Additional systems guidance
                           and training for IT users would provide users with the information they need
                           to perform their jobs better.

                           IT Support During the Florida Storms

                           The concurrent hurricanes which struck Florida and the Gulf Coast in 2004
                           pushed FEMA’s IT capabilities to the limit, demonstrating the agency’s
                           commitment to carrying out its mission regardless of the adversities
                           encountered and the enormous effort required. Hurricanes Charley, Frances,
                           Ivan, and Jeanne—all category three or stronger storms—along with Tropical
                           Storm Bonnie, hit the region in close proximity and within a few weeks of
                           each other. 14 Figure 7 illustrates the date and location of these storms, which
                           collectively created near-catastrophic conditions and caused an estimated $42
                           billion worth of damage. FEMA defines a catastrophe as an incident which
                           results in extraordinary levels of damage and almost immediately exceeds
                           state and local resources and significantly interrupts governmental operations
                           and emergency services.




                           Figure 7: Four Category 3+ Hurricanes in 2004




14
  The Saffir-Simpson Hurricane Scale defines hurricane intensity using a rating scale of 1-5, where 1 is the least intense
and 5 is the most intense. Hurricanes Charley and Frances were category 4 hurricanes, with wind speeds of 131-155
miles per hour. Ivan and Jeanne were category 3 hurricanes at landfall, with wind speeds of 110-130 miles per hour.

                    Emergency Preparedness and Response Could Better Integrate Information Technology
                                          with Incident Response and Recovery


                                                         Page 15
      Under the circumstances, EP&R CIO IT support staff provided significant
      service during the Florida hurricanes of 2004. FEMA IT was tasked to
      establish quickly a 200,000 square foot disaster field office—the largest in its
      history—within just seven days. Approximately 2,000 employees staffed this
      disaster field office. Previously, a field office of just 400-500 employees was
      considered large; accordingly, NEMIS was designed to support a maximum of
      three disaster field offices of 150 employees each. (See Figure 8). Significant
      IT resources were required to set up phone and data lines and computer
      stations, and to manage system access rights for system users. Providing
      system and network support for such a large operation proved challenging.

      For example, during the hurricanes, NEMIS handled more than one million
      requests for disaster assistance in just six weeks. Due in large part to NEMIS
      automation, individual assistance was generally provided within 7 to 10 days
      as compared to several weeks via the predecessor system. NEMIS and its
      support staff were stretched to the limit and demonstrated remarkable
      dedication to sustaining operations where systems access and capabilities far
      exceeded systems design. At one point, NEMIS supported 18 call centers,
      well beyond its design requirement of three call centers and 20,000 calls per
      day. Overall disaster victim satisfaction with call center service was about 85
      percent, despite this large volume of calls.




      Figure 8: Disaster Field Office in Orlando, Florida

      The national IT helpdesk also provided effective support for FEMA’s disaster
      management operations in Florida. During FY 2004, largely due to the
      concurrent hurricanes, the helpdesk handled a 50 percent increase in call

Emergency Preparedness and Response Could Better Integrate Information Technology
                      with Incident Response and Recovery


                                   Page 16
                            volume, with 33,000 calls received over the course of the year. FEMA
                            personnel in both the regional and the disaster field offices reported that the IT
                            help desk at Mount Weather provided excellent support. The helpdesk
                            supports all areas of IT, including dial-up access, account access for new
                            users, troubleshooting, and remote access. The views of personnel with whom
                            we spoke were substantiated by a client satisfaction survey conducted during
                            2004 by the Customer Care Institute, an external firm specializing in customer
                            satisfaction surveys. The response rate was 37 percent, or 302 of the 816
                            clients surveyed. The survey results helped identify current client satisfaction
                            levels, as well as establish a benchmark for future surveys. According to the
                            survey, approximately 97 percent of the respondents were satisfied with the
                            service that they received from the helpdesk, and 46 percent were extremely
                            satisfied.

                            Additional IT Guidance and Training Needed

                            According to Office of Management and Budget Circular A-130, users of
                            federal information resources must have the skills, knowledge, and training to
                            manage information resources, enabling the federal government to serve the
                            public through automated means. According to the Clinger-Cohen Act of
                            1996, 15 agencies are responsible for ensuring that IT users receive the training
                            that they need to do their jobs. Although EP&R’s IT technical support
                            personnel responded effectively to system user needs, especially prior to and
                            during the Florida disasters, additional guidance and training for system users
                            is necessary to ensure that users have the knowledge and information
                            necessary to perform their jobs efficiently and effectively.

                            Specifically, although the EP&R CIO’s office maintains up-to-date systems
                            procedure manuals and guidance, such as online job aids, a number of FEMA
                            field personnel whom we interviewed were not aware of their existence.
                            Unaware of online resources, users relied on out-of-date manuals or created
                            their own individual reference documents: two of the three regions that we
                            visited were using out-of-date, hard copy systems manuals that were still in
                            draft format.

                            In addition, the online IT manuals only described the procedures necessary to
                            complete actions in the systems; they did not contain the business context for
                            when and why the procedures would be used. This information, provided in
                            separate manuals created by the program areas, forced system users to refer to

15
     Sections D and E of Public Law 104-106.


                      Emergency Preparedness and Response Could Better Integrate Information Technology
                                            with Incident Response and Recovery


                                                        Page 17
      two different sources to obtain an understanding of how to perform their jobs.
      For example, if a manager wanted to create a mission assignment in NEMIS,
      that manager would need to refer to a program-created guide, Mission
      Assignment for Managers Student Manual, to understand “when” to create a
      mission assignment, and to the online system steps to understand “how” to
      create the mission assignment in NEMIS.

      Further, system users were not provided with adequate training. EP&R
      systems often are custom designed and complex, requiring significant upfront
      training to understand how to use them to support emergency management
      activities. Regional system users, however, said that new employees often did
      not receive training before they were deployed and experienced users did not
      receive training when system changes occurred.

      An independent contractor, charged with documenting and evaluating
      response and recovery processes during the hurricanes, reported that new
      employees were deployed to the disaster site without first receiving system
      training. The new employees had to be trained by other FEMA employees
      during ongoing response and recovery operations. While training new
      employees onsite at times may be the only option, the problem was that they
      sometimes relied upon experienced system users that had not received training
      on system changes and updates. The users, consequently, were not aware of
      all system functions and had a low comfort level in using the systems.

      FEMA regional personnel said that a lack of funding was a reason for the
      limited NEMIS training. They said that they primarily learned to use the
      system through on-the-job training rather than through formal instruction.
      This lack of training had an even greater impact on temporary disaster
      assistance employees. Sufficient training would have made their work more
      reliable and much easier.

      Recommendation

      2. We recommend that, in keeping with legislative requirements, the Under
         Secretary for EP&R direct the EP&R CIO to ensure that personnel,
         through the EP&R training division, receive adequate systems training,
         guidance, and communication needed to support disaster response and
         recovery activities effectively.




Emergency Preparedness and Response Could Better Integrate Information Technology
                      with Incident Response and Recovery


                                  Page 18
Systems to Support Response and Recovery Operations Need Improvement
                           Federal regulations require agency CIOs to promote the effective and efficient
                           design and operation of major information resources management processes.
                           They must develop, maintain, and facilitate the implementation of integrated
                           IT architectures to meet agency missions. The EP&R systems environment,
                           however, is not integrated and does not support effective information
                           exchange. Consequently, during disasters, the systems are not able to handle
                           increased workloads effectively, are not adaptable to change, and lack needed
                           capabilities. The reactive nature of EP&R’s disaster response encourages
                           short-term systems fixes rather than long-term IT solutions. Taking the time
                           to define and document systems requirements fully and evaluate viable
                           alternatives to its complex, custom designed systems, will enable EP&R to
                           support its response and recovery operations and meet its mission needs
                           better.

                           Unintegrated IT Environment

                           EP&R is working to complete an enterprise architecture to govern its IT
                           environment. Currently, however, its systems are unintegrated and do not
                           effectively share information. IT officials agree that it is essential to integrate
                           systems to support mission requirements better, but that decision must be
                           made in collaboration with the systems owners and program officials.
                           Linking the systems to state emergency management systems that rely upon
                           FEMA information to carry out state disaster management responsibilities
                           would also be beneficial.

                               FEMA Enterprise Architecture Development is Ongoing

                           The Clinger-Cohen Act of 1996 16 requires the CIO to develop, maintain, and
                           facilitate the implementation of a sound, enterprisewide IT architecture. An
                           enterprise architecture provides a blueprint of the hardware, software, and
                           related policies needed to achieve defined business objectives. Such an
                           architecture serves as the agency’s road map to future systems development,
                           network updates or changes, and implementation of key federal requirements.
                           In 2001, FEMA developed an enterprise architecture document to serve as a
                           guide to creating and implementing e-government initiatives. This road map
                           has served FEMA well, documenting both major successes and key initiatives.
                           For example, a few such initiatives were identified in the 2001 enterprise
                           architecture and are still operational today. These initiatives include:

16
     Public Law 104-106

                     Emergency Preparedness and Response Could Better Integrate Information Technology
                                           with Incident Response and Recovery


                                                       Page 19
                                 •   The FEMA website (www.fema.gov), which was developed to share
                                     information on the internet with the public.
                                 •   The automation of grants management, which has been added to the
                                     NEMIS system.
                                 •   The development of a capital planning and investment control
                                     process, which provides guidance for investment in IT.
                                 •   The use of wireless technologies to improve mobile computing and
                                     communications support for FEMA operations.

                           FEMA published its architecture in 2001, but has not fully updated it to reflect
                           its integration into DHS. FEMA is working to transition this paper-based
                           document to an electronic format so that it can be easily shared among DHS
                           officials via the intranet. The EP&R CIO established an Enterprise
                           Architecture Office in 2003 and hired a Chief Enterprise Architect in 2004 to
                           help further the progress of FEMA’s enterprise architecture program. The
                           Enterprise Architecture Office has completed the “as is” portion of the
                           enterprise architecture and has begun to use an electronic version to guide
                           day-to-day operations. 17 FEMA is currently working to develop the “to be”
                           portion of the enterprise architecture in line with the DHS enterprise
                           architecture. 18 Without a defined “to be” environment, FEMA is unable to
                           provide a comprehensive road map for its proposed IT initiatives. These
                           initiatives include NEMIS web enablement, which involves consolidation of
                           some of the geographically-dispersed servers, as well as a number of IFMIS
                           improvements as defined in the system’s 2006 business case.

                           Additionally, without a complete, communicated, “to be” road map, FEMA
                           may not be able to address how its initiatives support or integrate with DHS-
                           wide initiatives. As FEMA works to update its enterprise architecture, it must
                           also consider departmentwide initiatives, which may impact on its key
                           response and recovery processes and systems.

                                Centralization of NEMIS Servers

                           The Office of Management and Budget Circular A-130 requires agencies to
                           develop information systems to facilitate interoperability across networks of

17
  An “as is” enterprise architecture details an organization's mission, organizational structure, business processes,
information exchanges, software applications, and underlying technical infrastructure.
18
  A “to be” enterprise architecture describes an organization's desired architecture for meeting strategic goals and future
needs.

                     Emergency Preparedness and Response Could Better Integrate Information Technology
                                           with Incident Response and Recovery


                                                          Page 20
      heterogeneous hardware, software, and telecommunications platforms.
      However, FEMA’s current server architecture does not effectively support
      operations.

      When NEMIS was developed, FEMA created a state-of-the-art, distributed
      client-server architecture, providing each region with its own set of servers to
      support regional operations. However, as system usage has increased FEMA
      has recognized the need to move toward a more centralized database structure,
      and is in the process of consolidating its data storage systems. Such
      centralization would help ensure data consistency, use less bandwidth, and
      facilitate backup recovery because the information would be readily available
      in one place. Presently, information on regional servers must be replicated
      across multiple servers at FEMA headquarters—a process that delays data
      exchange and consumes bandwidth. FEMA’s limited bandwidth could better
      be used for advanced technologies such as video teleconferencing, which
      directly support the agency’s emergency management mission. Although,
      EP&R CIO is in the process of centralizing and consolidating servers, as of
      April 2005, this process had not been completed. As a result, users continue
      to experience slow and sometimes unavailable systems. Additionally, if
      systems were to crash and EP&R were required to recover information or data
      from backups, it would take as long as a month to complete.

          Systems Integration and Information Sharing Need Improvement

      According to the DHS strategic plan, DHS will “lead, manage, and coordinate
      the national response to acts of terrorism, natural disasters, or other
      emergencies.” To accomplish this, DHS has to bring the right people and
      resources to bear where and when they are needed most, as well as provide
      integrated logistical support to ensure rapid response and coordination among
      federal, state, and local operations centers. However, FEMA’s systems do not
      support effective or efficient coordination of deployment operations because
      there is no sharing of information.

      Specifically, NEMIS—the system for managing mission assignments—does
      not share information with the ADD or LIMS III deployment systems. When
      a disaster occurs, FEMA and state officials must quickly identify the people
      and other resources needed to respond to the incident. Information on the
      disaster is established in NEMIS, including requests for assistance,
      requisitions and commitments for services and supplies, and the initial
      allocation of funds. However, FEMA is unable to match automatically the
      mission assignments in NEMIS to either the personnel deployed through ADD
      or to the equipment and supplies dispatched through LIMS III. To

Emergency Preparedness and Response Could Better Integrate Information Technology
                      with Incident Response and Recovery


                                  Page 21
      compensate, regional staff create and maintain ad hoc databases, spreadsheets,
      and paper records to manage deployments. During the Florida hurricanes, for
      example, the regional office in Atlanta, Georgia received from 300 to 400
      requests for personnel and supplies within a three-to-four-day period. To
      respond to these requests, the region improvised by creating a mission
      assignment spreadsheet that showed the dates and status of the requests, as
      well as the dates and times that the resources would be received. The
      spreadsheet enabled the region to coordinate the response and identify those
      requests that had been filled and those which remained open.

      Further, the lack of integration between ADD and LIMS III hinders FEMA
      from providing the appropriate number and combination of people and
      supplies to meet the level of need at disaster locations. Without adequate
      coordination, personnel might arrive at a disaster site and be unable to begin
      work because the supplies and equipment they need have not yet arrived, or
      the supplies may arrive without the necessary people to accept and distribute
      them. Generally, to achieve the right mix, FEMA’s Emergency Operations
      Center staff laboriously searches through ADD to identify available personnel.
      Likewise, the Agency Logistics Center must search through LIMS III to
      identify available supplies. This approach was not effective during the Florida
      hurricanes when 600 to 800 tractor-trailer trucks of supplies arrived at one
      staging area within a 24-to-36-hour period. There were only five people at the
      staging area to accept the supplies because their arrival had not been
      effectively coordinated with personnel deployments. The truck drivers were
      forced to wait at the staging area for hours until the goods could be unloaded
      and processed, a costly delay which hampered disaster assistance.

      IT officials agree that it is essential to integrate systems to better support
      mission requirements, and that this decision must be made in collaboration
      with the systems owners and program officials. For example, in response to
      our report, the CIO acknowledged the need to upgrade and integrate IFMIS
      and FEMA’s deployment systems. Systems integration also should consider
      DHS-wide direction and programs, such as eMerge2 and MAXHR.

          State Stakeholders Request Better System Links

      Office of Management and Budget Circular A-130 requires that federal
      agencies integrate state and local government requirements with their
      information resource management strategies. However, EP&R response and
      recovery systems do not share information with those used by major
      stakeholders in state governments. States receiving disaster assistance need to
      maintain accountability for the federal support they receive. Financial

Emergency Preparedness and Response Could Better Integrate Information Technology
                      with Incident Response and Recovery


                                  Page 22
      information, such as the amount of funds allocated, obligated, and expended
      on behalf of the states is available in NEMIS. While NEMIS’ predecessor
      system did not provide adequate access or internal management controls, it
      enabled state users to access the FEMA system directly from their desktops.
      Some states even created automated ways to transfer FEMA information to
      their state systems. However, this is no longer possible with NEMIS due to
      security requirements that limit state employees’ ability to access NEMIS
      from their desktops.

      Currently, state users can access NEMIS, but not directly from their desktops.
      Instead, states rely upon stand-alone computers and use manual or convoluted
      processes to transfer NEMIS information to their state systems. For example,
      one state uses five stand-alone computers to access NEMIS via a virtual
      private network, which provides a secure, encrypted connection through the
      public internet. Users in this state manually re-key NEMIS information into
      their state systems. Alternatively, they bypass the virtual private network by
      emailing NEMIS information from the stand-alones to their desktops and then
      copy the information into the state systems. One user even sent NEMIS
      information to a home email address. Both such practices create information
      security concerns.

      IT Systems Could More Effectively Support Operations

      Because of the unintegrated IT environment, during the 2004 hurricanes,
      EP&R systems did not effectively handle increased workloads, were not
      adaptable to change, and lacked needed capabilities. Accordingly, FEMA
      field personnel developed manual workarounds, adjusted processes, and
      created alternative IT methods to supplement existing response and recovery
      systems and operations. Consequently, this created operational inefficiencies
      and hindered the delivery of essential disaster response and recovery services.

          Systems Experienced Difficulty Handling Increased Workloads

      FEMA systems were unable to handle effectively the significantly increased
      workloads required to support disaster victim application processing during
      the 2004 hurricanes. According to FEMA personnel, they lacked email server
      space to accommodate messages and reports sent from state and local
      emergency centers. If someone did not routinely clear the emails from the
      server, its capacity would fill up—sometimes as much as five to ten times per
      day—and the system could crash. At one point, the system was down for two
      hours at the height of the Florida disasters. Workers could not save or
      download documents. Rather than expand server capacity to resolve the

Emergency Preparedness and Response Could Better Integrate Information Technology
                      with Incident Response and Recovery


                                  Page 23
      problem, all workers had to log off of the email server while someone moved
      emails from the queue file by file.

      Further, the surge of disaster victim registrations resulting from the Florida
      hurricanes overloaded NEMIS’ main server, pushing the system beyond its
      limit. Originally designed to handle a maximum of 20,000 disaster victim
      registrations a day, during a four-month period from August to December
      2004, NEMIS registrations far exceeded these limits during peak periods,
      reaching over 40,000 on some days. The total number of disaster victim
      registrations processed during the four-month period of the Florida hurricanes
      was 1,745,183. The volume of transactions and the number of personnel
      managing these registrations significantly slowed down the system or made it
      unavailable for use during peak operations.

      Although EP&R CIO staff worked to keep the system operational by
      increasing system memory, NEMIS’ main server became overloaded, the
      system froze, and unplanned system restarts were necessary. Users were
      unable to perform their jobs in the system and consequently reverted to paper-
      based methods. When NEMIS’ main server went down, approximately 2,000
      IT users were kicked out of the system for as long as 20 to 30 minutes at a
      time. FEMA personnel accepting victim registrations had to record the
      information manually and wait to register the victims in NEMIS when the
      system was functional again. Additionally, FEMA personnel lacked the up-
      to-date NEMIS information needed to answer disaster victim inquiries when
      they called the National Processing Service Center for assistance.

      As part of our review, we requested system performance reports from the
      EP&R CIO’s office to determine how the systems performed during the
      hurricane response. However, the CIO office did not have a standard process
      in place to produce system performance reports. Instead, it had to complete a
      manual analysis of raw data to provide performance data for only one of
      NEMIS’ key servers. The CIO office stated that it would take several months
      to supply performance information for all of the other servers. Although the
      CIO office can monitor central processing unit and hard drive space
      availability on a real-time basis, it does not have a tool that can show system
      performance over time. Without such a tool, it is difficult for FEMA to
      identify system performance problems and take corrective actions to address
      them.

      Given the problems experienced during the 2004 hurricane response and
      recovery season, a number of FEMA officials expressed concern about not
      only NEMIS’ current capabilities, but also its capacity to support future

Emergency Preparedness and Response Could Better Integrate Information Technology
                      with Incident Response and Recovery


                                  Page 24
      dramatic increases in workload. Even the engineers responsible for designing
      and developing NEMIS questioned whether the system could consistently
      manage workloads resulting from multiple, concurrent disasters. Although
      the Florida hurricanes entailed one of the largest response and recovery efforts
      in FEMA’s history, workload volumes from multiple, large disasters in the
      future could far exceed the systems processing levels required to manage the
      2004 incidents.

          Systems Are Old and Not Adaptable to Change

      FEMA’s response and recovery applications are custom designed, complex,
      outdated, and difficult to adapt to changing user needs. As a result, during
      disaster response and recovery operations, FEMA has had to adjust its
      processes to overcome the systems limitations. For example, ADD was
      designed in such a manner that it cannot be easily updated. Currently, it is
      difficult to enter into ADD the financial information necessary to issue credit
      cards, commonly known as “supercards,” for emergency response personnel.
      As a result, FEMA officials created separate, stand-alone databases to track
      the financial information rather than submit their ADD change requirements
      to the CIO’s office for implementation.

      Further, the mail-processing center at the National Processing Service Center
      in Hyattsville, Maryland, was unable to handle the surge in letter production
      required during the Florida hurricanes. FEMA employees select and print
      batches of letters to the victims, categorized by different disaster situations.
      However, this process became difficult during the 2004 hurricanes because of
      the increased volume of letters that had to be prepared. No provision had
      been made for surge printing capability.

      CIO officials worked to address the letter generation problem. After 7 to 10
      days of effort, they succeeded in improving the system code, helping to reduce
      the print backlog. However, a contractor later examined the system code and
      found it to be extremely complex, requiring 20 pages of code to print what
      newer, more efficient code can do in one line. The contractor recommended
      rewriting the code; the NEMIS development team currently is investigating
      ways to address this issue.

      In addition to revising the system code to address the print backlog, FEMA
      changed the business process, instituting a workaround that involved creating
      one standard letter to send to all disaster victims. The standard letter helped
      speed up the victim notification process. However, the letter was too generic,
      did not provide victims the information they needed, and did not clearly

Emergency Preparedness and Response Could Better Integrate Information Technology
                      with Incident Response and Recovery


                                  Page 25
      specify what assistance they could expect from FEMA and when it might be
      available. Confused, the victims called National Processing Service Center
      representatives for clarification. This created additional burdens as the Center
      was already overloaded with increased workloads, high call volumes, and
      slow and crashing systems.

          Reporting Challenges

      Response and recovery program personnel said that some FEMA systems did
      not provide useful reports regarding ongoing operations. They said that the
      standard reports that NEMIS and IFMIS generated were long and did not
      contain specific information, in the right format, to meet their needs. For
      example, when a grant report is requested from IFMIS, the product includes
      all grants instead of identifying specific grant information. Because the
      reports provided were not useful, FEMA regional offices copied data from the
      systems and loaded it into spreadsheets and databases so that they could create
      their own reports. The spreadsheets and databases were not standardized
      across all regional offices, were not connected with the response and recovery
      systems, and were not centrally backed up. As a result, regional offices did
      not maintain consistent information that could be rolled up to the national
      level.

      In addition, requested reports were not timely. At one point in the Florida
      operations, Individual Assistance Program personnel received a report six
      days after it had been requested. As a result, 200-300 disaster assistance
      employees were hindered in their efforts to assist more than 200,000 disaster
      victims who had requested temporary housing assistance. Without the reports
      to provide the names and contact information of eligible victims, FEMA was
      delayed in locating victims to deliver assistance. Other system users said that
      IFMIS reports take so long to run that they regularly leave the system on over
      night to produce them. Alternatively, users copy system information, such as
      financial transaction data, mission assignments, vendor information, and
      action tracking request forms, onto spreadsheets or databases to access and
      manipulate the needed data more easily.

          Real-Time Resource Tracking Issues

      During the 2004 hurricanes, FEMA systems did not provide staff with real-
      time capabilities for tracking deployments of personnel, equipment, and
      supplies. For example, ADD did not allow FEMA regional staff to keep track
      of emergency response personnel sent out to provide assistance at disaster
      locations. Although ADD contained much of the personnel deployment

Emergency Preparedness and Response Could Better Integrate Information Technology
                      with Incident Response and Recovery


                                  Page 26
      information, it did not provide a consolidated view so that regional staff could
      determine:

          •   Who had been deployed to the disaster sites;
          •   Who was en route, but had not yet arrived;
          •   Who had been sent by FEMA headquarters, but had not been entered
              into ADD; and,
          •   Who had arrived at the disaster sites and whether or not they had
              checked in with the region.

      To gain a complete picture of where people were during the hurricanes, the
      regional deployment coordinator developed a custom database that contained
      all of the information available and used it to prepare daily reports. Although
      the reports tracked the “daily” status of people, they did not provide real-time
      information, potentially placing emergency personnel at risk. For example,
      when FEMA ordered an emergency evacuation of Orlando, Florida, its
      regional staff could not obtain from ADD an up-to-date list of deployed
      personnel and their exact locations. Regional staff had 11 hours in which to
      manually compile the information, and identify and contact the approximately
      200 response and recovery personnel deployed to that area. Fortunately, in
      this instance, the evacuation was successful. However, the ability to track
      deployed personnel on a real-time basis is a critical factor to ensuring
      personnel safety, especially during catastrophic events. According to FEMA
      officials, the Response Division, which is responsible for ADD, is in the
      process of developing a replacement for the deployment system.

      FEMA cannot use LIMS III for real-time tracking of emergency equipment
      and supplies deployed to disaster sites. LIMS III is essentially an inventory
      system used to manage equipment and accountable property, such as cell
      phones or pagers. LIMS III contains information on the number of items
      available and where they are located. However, once the items are identified
      for deployment, LIMS III does not indicate when they will be shipped and
      when they should arrive. To compensate, emergency personnel in Florida
      said that they tracked items on a spreadsheet and spent a significant amount of
      time calling trucking companies to determine the status and projected arrival
      times of in-transit goods.

      Further, LIMS III does not effectively track the exact location of equipment
      and supplies after they have been issued. FEMA officials said that they do not
      use LIMS III to issue accountable property during emergency situations,
      because it takes too long. For example, although accountability property
      officers made electronic records in LIMS III of bulk goods received during the

Emergency Preparedness and Response Could Better Integrate Information Technology
                      with Incident Response and Recovery


                                  Page 27
      Florida hurricanes, these officials used hand receipts to distribute quickly the
      property to those who needed it. Typically, these transactions were not
      entered into LIMS III until as many as ten days later, so the system did not
      maintain an accurate, real-time inventory of the property on hand. Similarly,
      when Florida requested 500 cell phones, the phones were issued using hand
      receipts—not through LIMS III. FEMA officials said that it later required
      about ten minutes to enter the information from the hand receipts into LIMS
      III for each of the phones issued.

      In addition, LIMS III does not track critically needed commodities, such as
      water, ice, or tarps. Instead, emergency coordinators use spreadsheets to track
      these goods outside of LIMS III. An Atlanta regional official said that this
      significantly increased the workload of the regional operations center. This
      also required the assignment of additional personnel to obtain the status of
      deployed commodities and complicated emergency response planning and
      coordination.

      For example, during the 2004 hurricanes, the State of Florida requested ice
      and water via action request forms. Hard copy mission assignments were
      completed, and the regional operations center used them to assign the request
      to the U.S. Army Corps of Engineers. The regional operations center tracked
      the mission assignments via spreadsheets because FEMA does not have a
      system to track deployed commodities. When asked about delivery status,
      U.S. Army Corps of Engineers officials could only tell center officials that
      they were en route with the items. After the items were received onsite, an
      accountability property officer faxed copies of the paper receipts to the center.
      This was a time consuming and resource intensive process. In one instance,
      approximately 1,500 tractor-trailers delivered commodities to a staging area.
      (See Figure 9). The accountability property officer had to survey the area,
      manually inventory the commodities received, and email that inventory
      information to the regional operations center. Because there was no
      automated way to coordinate quantities of commodities with the people
      available to accept and distribute them, millions of dollars worth of ice was
      left unused at staging areas in Florida; and, about $1.6 million worth of
      leftover water had to be returned to the warehouse for storage.




Emergency Preparedness and Response Could Better Integrate Information Technology
                      with Incident Response and Recovery


                                  Page 28
      Figure 9: Tractor Trailers Pick Up Supplies For Disaster Victims



      FEMA officials said that they are currently pilot-testing a Total Asset
      Visibility System to track shipment and distribution of essential commodities
      such as ice, water, and food. Such a tracking system should provide FEMA
      with the capability to track assets real-time, across federal, state, and local
      organizations.

      Management Practices Contribute to Systems Operations Problems

      FEMA’s disaster response culture has supported the agency through many
      crisis situations, such as the 2004 hurricanes. However, its reactive approach
      encourages short-term systems fixes rather than long-term solutions,
      contributing to the difficulties that FEMA encounters in efficiently and
      effectively supporting response and recovery operations. Without taking the
      time to fully define and document systems requirements, it is difficult for
      FEMA to evaluate effectively viable alternatives to its custom designed
      systems. Further, the reactive manner in which IT systems are funded and
      implemented has left little time for proper systems testing before they are
      deployed.

          NEMIS Requirements Not Consistently Updated

      Office of Management and Budget Circular A-11 directs agencies to reduce
      project risk by involving stakeholders in the design of IT assets. Users can
      play an important role in helping to define systems requirements to meet


Emergency Preparedness and Response Could Better Integrate Information Technology
                      with Incident Response and Recovery


                                   Page 29
      mission needs. FEMA’s approach to defining requirements to support
      development of its principal disaster management system has not been
      effective, however. When the CIO office began to develop NEMIS in 1995,
      the office documented a set of system requirements. But, an EP&R CIO
      official noted that headquarters personnel were usually responsible for the
      requirements definition process and that not all of FEMA’s stakeholders were
      involved. Consequently, once NEMIS became operational, the system
      automated a process that did not reflect how FEMA personnel actually behave
      during disasters. To address this disparity, the EP&R CIO office had users
      come in after the initial release of NEMIS to look at each individual module
      and suggest system changes.

      Lacking an effective means to provide input to NEMIS development, users
      have been forced to rely on systems that do not effectively meet their
      requirements, modify their processes, or resort to manual workarounds. For
      example, after an incident occurs, regional officials are supposed to use
      NEMIS’ preliminary damage assessment module to evaluate destruction and
      losses due to disasters, and subsequently submit that information to
      headquarters, along with state requests for federal assistance. However, a
      regional official said that emergency personnel do not use this module to the
      fullest extent possible. Instead of directly entering the damage assessments
      into the system, emergency personnel collect and fax the information for
      review and consideration. The official said that it is easier and faster to
      submit the damage assessments in hard copy than use the poorly designed
      NEMIS module.

      The EP&R CIO now recognizes the need to improve efforts to reach out to IT
      users across the directorate and has established forums for discussing and
      defining system requirements. For example, the EP&R CIO office has
      assigned each system a customer advocate and a program manager from the
      various program areas. Program officials approve the requests for systems
      changes and provide them to IT personnel for further review. IT personnel
      then discuss how proposed systems changes will be implemented. A policy
      steering committee, consisting of managers from FEMA headquarters, defines
      the business processes that are echoed in the technical systems requirements.

      Further, the EP&R CIO has proposed updating NEMIS requirements to
      support the proposed eNEMIS initiative. In commenting on this report, the
      EP&R CIO discussed plans to elicit broad stakeholder participation in the
      requirements definition process for the e-NEMIS initiative. Broad stakeholder
      participation in the requirements definition process will be essential to deliver
      a web-based NEMIS to meet varied user needs.

Emergency Preparedness and Response Could Better Integrate Information Technology
                      with Incident Response and Recovery


                                  Page 30
      However, FEMA officials have not maintained a record of changes to systems
      requirements nor have they developed an up-to-date NEMIS requirements
      document. One EP&R CIO staffer said that they have limited funding; when
      the budget gets pressed, it is always the “overhead” or administrative
      activities, such as updating requirements documentation, which are bypassed.

          Alternatives Analysis Needed

      Office of Management and Budget Circular A-130 encourages agencies to
      consider various options for providing automated systems to meet their
      mission needs. However, by not taking the time to fully define and document
      systems requirements, it has been difficult for FEMA to evaluate viable
      alternatives to the highly complex, custom designed systems that it relies upon
      to support disaster response and recovery operations. Because these systems
      have carried FEMA through its responsibilities over the years, senior IT
      officials said that they have made little effort to evaluate off-the-shelf
      products to determine if there is a simpler, commercially available, and
      possibly more effective IT alternative. FEMA’s Business Year 2006 business
      case submission to the Office of Management and Budget for NEMIS
      improvements also indicates a lack of alternatives analysis.

      Members of the EP&R CIO office speculated that off-the-shelf products
      would likely not meet their needs during peak emergency operations. For
      example, according to a recent business case for the next generation of
      NEMIS, there is no plan to perform an analysis of alternative off-the-shelf
      products or other department systems. The NEMIS requirements document is
      not up-to-date, and user input to those requirements has been limited. NEMIS
      is a tool that stretches across multiple business functions; only by having a
      complete set of documented system requirements for each of these functions
      will the EP&R CIO be able to determine if alternative products can or cannot
      fulfill requirements.

      In addition, officials in one state agency increasingly have become aware that
      the federal government cannot compete with the private industry on
      developing systems. According to this state agency, private industry is
      developing multiple systems to support emergency management operations.
      However, because federal systems do not always use the most up-to-date
      technology, it is becoming more difficult for state agencies to share
      information with the custom designed federal systems as states upgrade their
      own off-the-shelf systems.


Emergency Preparedness and Response Could Better Integrate Information Technology
                      with Incident Response and Recovery


                                  Page 31
      Lastly, some users said that if FEMA had adopted an off-the-shelf product
      instead of NEMIS, it would have the additional functions that they need. For
      example, multiple off-the-shelf enterprise resource planning systems
      developed by the private sector could possibly support coordination of
      response and recovery activities. Once FEMA has completely defined all
      business requirements, it will be in a better position to evaluate available
      commercial products.

          Reactive IT Implementation to Meet Expedited Requests

      Federal regulations require that agencies plan in an integrated manner for
      managing IT throughout its life cycle. However, EP&R’s tendency to rush
      systems acquisition to meet immediate needs has encouraged ad hoc
      development and implementation of IT programs, which has contributed to
      many systems integration and performance problems. The EP&R CIO budget
      in FY 2004 was approximately $80 million. About 90 percent of that amount
      was earmarked for operating and maintaining existing systems, leaving only
      10 percent for new IT initiatives. Consequently, the CIO is dependent on the
      program offices for any new systems funding.

      EP&R has documented plans which propose initiatives and priorities for
      strategic implementation of long-term IT solutions. However, the program
      offices in many cases are the owners of the systems, typically do not fund the
      long-term strategic IT initiatives, and take a cursory approach to short-term
      systems acquisition. They often do not authorize or fund IT initiatives until
      disasters occur and specific systems needs become critical. The CIO is
      working to implement a process for reviewing and approving capital
      investments—including IT investments—to prevent this from repeating. Until
      this process is fully implemented, however, the CIO has no means of ensuring
      that IT investments are well-integrated or aligned with mission needs.

      For example, nine months prior to the 2004 hurricanes, FEMA’s recovery
      program offices provided funding to develop and implement an online
      registration capability for NEMIS. The online system is to allow disaster
      victims to submit claims via the internet without having to call the National
      Processing Service Centers. When the 2004 hurricanes occurred, the number
      of disaster victims registering for assistance increased significantly, thus
      overloading systems and staff of the National Processing Service Centers.
      The EP&R CIO was able to deploy the online registration system a full three
      months earlier than initially planned. However, an EP&R CIO official
      involved in development of the online systems said that its implementation
      did not follow standard change management or configuration management

Emergency Preparedness and Response Could Better Integrate Information Technology
                      with Incident Response and Recovery


                                  Page 32
                             processes. Failing to follow such processes ultimately leads to systems
                             availability problems. The Gartner Group, a leading provider of IT industry
                             research and analysis, reported that 80 percent of unplanned systems
                             downtime is caused by people and process issues, including poor change
                             management practices. Enterprises which have established strong change
                             management practices typically have the highest levels of systems
                             availability. 19

                             Additionally, according to regulations, agencies are responsible for ensuring
                             effective and efficient operation of IT equipment before it is implemented.
                             This entails proving that new systems function in a “production-like” test
                             environment to ensure that the IT applications work properly and contain
                             needed safeguards. However, in addition to its rushed systems acquisition
                             approach, the EP&R CIO does not have a test environment to match the real
                             systems environment, and does not always adequately test systems prior to
                             release.

                             For example, the online NEMIS registration capability did not have a name
                             check function to ensure the validity and existence of the individuals filing
                             claims. Also, the online system did not have controls to prevent one
                             individual from generating multiple claims at the same time, even though the
                             technology to prevent this from occurring already exists. One FEMA official
                             was aware of six false claims made online. Proper testing of the online
                             system likely would have disclosed this lack of system controls, leaving
                             FEMA less susceptible to such fraud. FEMA officials said that they are in the
                             process of acquiring the identity proofing, authentication, and prevention
                             capabilities needed to mitigate these risks.

                             Further, a FEMA testing team lacked adequate requirements to support testing
                             of a new fire grants system. When it updated the production environment
                             with the new system code, the system automatically sent multiple print jobs
                             across the network, clogging up the system, and taking bandwidth away from
                             emergency personnel who needed it.




19
     NSM: Often the Weakest Link in Business Availability, Gartner, Inc., July 3, 2001.


                       Emergency Preparedness and Response Could Better Integrate Information Technology
                                             with Incident Response and Recovery


                                                           Page 33
                Recommendations

                We recommend that, in keeping with legislative requirements, the Under
                Secretary for EP&R:

                3. Direct the EP&R CIO to complete the FEMA enterprise architecture,
                   linked to the departmentwide architecture and ongoing initiatives that may
                   impact EP&R operations.

                4. Ensure cross-cutting participation from headquarters, regions, and states in
                   processes to develop and maintain a complete, documented set of FEMA
                   business and system requirements. Direct the EP&R CIO to analyze
                   alternatives and determine the most appropriate approach to providing the
                   technology needed to support these business and system requirements.

                5. Direct the EP&R CIO to develop and maintain a testing environment that
                   duplicates the real systems environment and ensures that all systems
                   components are properly and thoroughly tested prior to their release.
                   Additionally, direct the EP&R CIO to ensure that proper configuration
                   management activities are followed and documented.


Management Comments and OIG Evaluation
                We obtained written comments on a draft of this report from the Chief
                Information Officer (CIO), Emergency Preparedness and Response (EP&R),
                through the EP&R Under Secretary. We have included a copy of the
                comments in their entirety at Appendix B.

                In the comments, the EP&R CIO found the draft report to be unacceptable,
                stating that it incorrectly characterized FEMA’s strategic planning and IT
                activities and needed to be revised. The EP&R CIO also said that the overall
                tone of the report was negative and did not acknowledge FEMA’s “highly
                performing, well managed, and staffed IT systems,” leading the reader to
                conclude that EP&R is lacking, particularly in the areas we cover in our report
                recommendations. The EP&R CIO invited us to meet with FEMA’s strategic
                planning unit to best judge the extent to which the agency is in line with DHS
                strategic direction, as well as meet with EP&R CIO officials to clear up some
                of what the CIO called “obvious inaccuracies.”




          Emergency Preparedness and Response Could Better Integrate Information Technology
                                with Incident Response and Recovery


                                            Page 34
      We do not agree with the EP&R CIO’s response. First, it should be noted that
      during the audit we met with FEMA’s strategic planning unit, as well as with
      other program officials to discuss the agency’s planning activities. Based on
      these meetings and our review of supporting documentation, we devised
      findings and recommendations regarding the need to update the strategic plan
      and establish better linkages between it and the IT plan. At the May 17, 2005,
      audit exit meeting where we discussed a preliminary draft of the report, EP&R
      CIO officials did not address our conclusions or recommendations regarding
      strategic planning. Indeed, one FEMA official conceded that the lack of
      alignment in strategic planning likely was due to creation of the EP&R
      directorate and FEMA’s transition into the department—events over which
      they had little control.

      Second, with regard to the EP&R CIO’s concern about the overall tone of the
      report, we made considerable efforts to revise the report based on comments
      that EP&R CIO officials provided during our audit exit meeting and their
      review of a preliminary draft of our report pursuant to that meeting. In
      response to the EP&R CIO’s formal written comments, we have assessed the
      tone of the report and made additional changes where appropriate. Still, a
      number of the IT issues we raise, such as the lack of systems integration and
      challenges in handling processing workloads, are not new, dating back to well
      before the current EP&R administration and FEMA’s integration into DHS,
      and were consistently evidenced or voiced to us by EP&R officials and
      systems stakeholders during our audit. We acknowledge in the report the
      various instances where EP&R is working to address such issues; our
      recommendations are intended to encourage continued progress and
      improvement in these areas.

      Third, we believe that the EP&R CIO incorrectly equates the agency’s ability
      to meet the disaster management challenges to date with effective and
      efficient IT management. While we state in our report that EP&R was able to
      get through the 2004 hurricanes, often experiencing significant achievements,
      high customer satisfaction, and high volume processing, we also recognize
      that FEMA’s accomplishments were not necessarily because of its IT systems,
      but often in spite of them. Users across EP&R consistently told us that they
      did not use the headquarters-supplied systems, but instead relied upon
      alternative methods, such as creating ad hoc spreadsheets and databases or
      resorting to manual methods, to perform their jobs. Where IT systems were
      used, they often did not operate effectively. For example, systems were slow,
      froze, or lacked server space or memory due to the dramatic increases in
      systems users and processing workloads during the 2004 hurricanes. The
      EP&R CIO’s own FY 2005 strategic plan also states that during the

Emergency Preparedness and Response Could Better Integrate Information Technology
                      with Incident Response and Recovery


                                  Page 35
      hurricanes, “both NEMIS and its support staff were stressed to the limit and
      that Herculean efforts were required to meet demands that exceeded several
      design requirements by an order of magnitude.” The tremendous effort
      required to meet the 2004 challenges logically evokes questions about the
      ability of FEMA’s IT systems to prevail in supporting future disasters.
      Indeed, senior officials and a lead engineer for one of FEMA’s primary
      systems repeatedly shared with us concerns about the system’s ability to
      withstand potential multiple or catastrophic events.

      Fourth, given the IT issues expressed above, we believe that the EP&R CIO is
      not justified in referring to EP&R’s “highly performing, well managed and
      staffed IT systems” and that our overall message that IT could be better
      managed is warranted. Though the EP&R CIO suggested in his comments
      that a review with him, “may clear up some of the obvious inaccuracies,” it
      should be pointed out that we maintained ongoing communications with the
      EP&R CIO’s office during the course of our audit. For example, as requested,
      we met on a monthly basis with the EP&R CIO, or representative staff when
      the EP&R CIO was unavailable, to discuss audit progress, IT issues, and
      potential findings. In addition, as discussed previously, we held an audit exit
      meeting with the EP&R CIO and key IT officials, providing, as a courtesy, the
      opportunity to submit informal comments on a preliminary draft of our report,
      which served as input to the draft subsequently distributed for formal written
      comments.

      The EP&R CIO neither concurred nor non-concurred with our
      recommendations, but instead provided additional detailed comments and
      information to update or supplement issues we outline in our report. The
      following discussion provides our evaluation of each of the EP&R CIO’s
      additional comments.

      FEMA’s Support for DHS Strategic Goals: The EP&R CIO provided a
      number of comments on our treatment of FEMA strategic planning issues, and
      these are discussed below:

      •   We disagree with the EP&R CIO’s statement that our conclusion that
          “FEMA does not support DHS’ strategic goals” is based on what the CIO
          calls a “misunderstanding of the relationship between FEMA’s plans and
          metrics, and those of DHS.” Our audit did not seek to analyze
          comprehensively FEMA’s strategic planning processes. Rather, our
          objective was to review EP&R’s approach for responding to and
          recovering from incidents. In this context, we examined the strategic and
          IT plans in place to determine whether they are appropriately linked to

Emergency Preparedness and Response Could Better Integrate Information Technology
                      with Incident Response and Recovery


                                  Page 36
          support an alignment between DHS, FEMA, and response and recovery IT
          initiatives. Our review showed clear disconnects among the planning
          documents. Specifically, FEMA’s strategic plan was created prior to the
          agency becoming part of DHS, has not been updated since then, and
          consequently does not align with specific response and recovery metrics
          outlined in DHS’ plan. We reviewed FEMA’s IT strategic plan to
          determine whether technology approaches and initiatives support response
          and recovery mission goals and found that the IT plan is based on
          FEMA’s outdated strategic plan. As such, we recommended that both
          FEMA’s strategic and IT plans be updated.

      •   Contrary to the EP&R CIO’s statement, we neither assume nor state in our
          report that FEMA’s strategic plan is the only mechanism to ensure
          alignment of FEMA plans and programs with DHS goals and objectives.
          As stated above, we focused on FEMA’s strategic plan, because the EP&R
          CIO office identified this plan as the basis for IT planning and direction.
          Further, according to the Government Performance and Results Act of
          1993, performance-based management and budgeting must begin with an
          overarching strategic plan. As a result of our review, we identified
          misalignments between DHS’ and FEMA’s strategic planning documents
          that we would be remiss in not discussing in our report. We did not seek
          to analyze FEMA’s overall strategic planning process, or any of the other
          planning, programming, budgeting, and execution processes that the
          EP&R CIO identified. Such processes were outside of the scope of our
          audit.

      •   We neither dispute nor discuss the EP&R CIO’s assertion that the goals
          and metrics identified in DHS’ strategic plan were written by FEMA.
          Again, our intent was to point out disconnects between DHS’ and FEMA’s
          strategic planning documents and the need for FEMA updates to better
          support IT planning. Nonetheless, we have revised our report to state that
          FEMA not only participated in working groups to help develop the DHS
          plan, but also defined and owns the response and recovery goals and
          metrics outlined in the DHS plan.

      •   We believe that the EP&R CIO’s statement that some information in
          FEMA’s strategic plan has been outpaced by events helps support our
          argument that the plan is outdated and needs to be revised. Even though
          the main body of FEMA’s strategic plan may remain applicable since the
          agency has become part of DHS, updating the plan as we recommend will
          help ensure that the FEMA and DHS plans do not conflict, but also
          support each other. We have revised the language in our report to clarify

Emergency Preparedness and Response Could Better Integrate Information Technology
                      with Incident Response and Recovery


                                  Page 37
          our concern that use of the two plans as they currently exist could lead to
          ambiguous guidance and direction.

      •   We agree with the EP&R CIO’s statement that FEMA came into the
          department as a whole and that its mission was not dramatically altered,
          although the transition into DHS brought a new focus to the agency’s
          activities. Our report does not contest the continuity of FEMA’s all-
          hazard response and recovery mission in the context of the new
          department. Rather, our report recommends that FEMA update its
          strategic plan to reflect this organizational realignment, support
          achievement of DHS goals, and provide updated guidance on which to
          base IT planning.

      •   We believe that FEMA’s acknowledgement that it postponed a review of
          its strategic plan due to the demands of the 2004 hurricane season supports
          our argument that the plan is outdated and needs to be revised. We stand
          by our assertion that the plan is outdated, however, not from a calendar
          standpoint, but rather in the sense that it does not align with DHS’ plan
          and reflect FEMA’s integration into the new department. We recognize in
          our report that the schedule for updating the plan has been postponed due
          to events such as the 2004 hurricanes. Recommendation 1 is intended to
          encourage FEMA to proceed in updating the plan so that the document
          may serve as a useful and current guide to support IT planning.

      FEMA’s Participation in DHS Strategic and Performance Planning: We
      accept FEMA’s suggestion that we revise our report to reflect the relationship
      between FEMA and DHS in establishing performance goals and metrics. As
      previously stated, we have revised our report to indicate that FEMA not only
      participated in working groups to help develop the DHS plan, but also defined
      and owns the response and recovery goals and metrics outlined in the DHS
      plan.

      OMB Guidance on Linking Department and Component Plans: We disagree
      with the EP&R CIO’s statement that the report incorrectly cites OMB Circular
      A-11 as guidance for agencies to create their own strategic plans linked to
      overarching departmentwide plans. Section 210 of Circular A-11 states that
      an agency’s strategic plan provides an overarching framework, keying on
      those programs and activities that carry out the agency’s mission. The
      circular states that although a single plan should be submitted, the Results Act
      allows an agency with widely disparate functions to prepare several strategic
      plans for its major components or programs. In these instances, an overview
      that brings together the component plans is prepared. In line with these

Emergency Preparedness and Response Could Better Integrate Information Technology
                      with Incident Response and Recovery


                                  Page 38
      requirements, DHS’ strategic plan constitutes a single framework for
      consolidating the missions, goals, and objectives of its 22 agencies in a joint
      strategy for securing the homeland. As one of the legacy agencies, FEMA’s
      strategic plan necessarily should link to the overarching DHS plan. We have
      revised our report to clarify these requirements.

      Conflicting Guidance and Direction: We agree with the EP&R CIO regarding
      the potential for misconstruing our statement that a planning official’s use of
      both DHS’ and FEMA’s strategic plans results in conflicting guidance and
      direction. We have revised this language to show that the potential for
      conflicting guidance and direction is our conclusion, and not attributable to
      the planning official. We also have revised the wording in the relevant section
      of the report to ensure consistency with our executive summary.

      IT Strategic Plan Alignment with the DHS Plan: Contrary to the EP&R CIO’s
      assertion, our report neither contests nor discusses alignment of FEMA’s IT
      strategic plan with DHS CIO Council priorities. While we commend FEMA’s
      cooperation with the CIO Council, we did not include this issue in our audit.
      The strategic planning portion of our report is merely intended to emphasize
      that, despite federal guidelines, FEMA has not aligned its strategic and IT
      plans with the overarching DHS strategic plan.

      Handling Workloads during the 2004 Hurricane Season: We disagree with
      the EP&R CIO’s assertion that FEMA would not have been able to
      successfully handle the increased workload during the 2004 hurricane season
      if the agency were experiencing the various IT problems that we outlined. As
      previously indicated, we believe that the EP&R CIO incorrectly equates the
      agency’s ability to meet the disaster management challenges to date with
      effective and efficient IT management. While we state in our report that
      EP&R was able to get through the 2004 hurricanes, we also recognize that
      FEMA’s accomplishments were not necessarily because of its IT systems, but
      often in spite of them. Users across EP&R consistently told us that they did
      not use the headquarters-supplied systems, but instead relied upon alternative
      methods, such as creating ad hoc spreadsheets and databases or resorting to
      manual methods, to perform their jobs. Where IT systems were used, they
      often did not operate effectively.

      Enterprise Architecture: We disagree with the EP&R CIO’s assertion that we
      incorrectly reported on EP&R efforts to update its enterprise architecture to
      govern the IT environment. The following is our evaluation of the EP&R
      CIO’s various comments in this regard.


Emergency Preparedness and Response Could Better Integrate Information Technology
                      with Incident Response and Recovery


                                  Page 39
      •   First, we do not agree that our discussion of enterprise architecture issues
          in the executive summary of our report is misleading. The purpose of the
          executive summary is to bring together the various parts of our report to
          comprise an overall message. We believe that completing an enterprise
          architecture is important to provide a framework for ensuring effective
          systems integration, functionality, and information sharing, unlike what
          was experienced during the 2004 hurricanes.

      •   Second, we appreciate the EP&R CIO’s concern that our discussion of the
          status of enterprise architecture development is based on out-of-date
          information. We based our statement that the electronic “as is” enterprise
          architecture was approximately 85 percent complete and that the “to be”
          architecture development had not yet begun on discussions with the lead
          enterprise architecture official, held as recently as June 2005. We
          acknowledge the range of ongoing activities to further progress in
          architecture development and have revised our report to reflect these
          efforts. However, although the EP&R CIO cites such activities, the EP&R
          CIO does not provide an up-to-date, quantifiable indication of the current
          status of architecture development, as compared with the October 2005
          target completion date. Based on the information provided to date, our
          recommendation remains to proceed with architecture development and
          make it available as a framework for guiding FEMA’s IT management in
          line with the DHS architecture and ongoing initiatives.

      •   Third, we disagree with the EP&R CIO’s comment that our report
          assumes that the incomplete enterprise architecture alone is the reason for
          IT systems not efficiently handling increased workloads. The EP&R CIO
          has taken our reference to the enterprise architecture out of context and
          misconstrues the issue that we raise. Rather, we conclude in the executive
          summary of our report that the incomplete enterprise architecture, in
          conjunction with unintegrated systems and ineffective information
          exchange, creates an ineffective processing environment.

      •   Fourth, we have revised our report to reflect the EP&R CIO’s comments
          regarding recent progress in developing the “as is” and “to be” portions of
          FEMA’s enterprise architecture. We recognize that overall architecture
          development is an evolving process, but nonetheless encourage FEMA to
          complete the “to be” portion to serve as a roadmap for proposed IT
          initiatives.

      EP&R CIO Budget: We agree with the EP&R CIO there is a potential to
      misconstrue our statement regarding the resources used to develop and operate

Emergency Preparedness and Response Could Better Integrate Information Technology
                      with Incident Response and Recovery


                                  Page 40
      IT for response and recovery. We have revised our report to reflect more
      accurately the activities performed by EP&R CIO personnel.

      LIMS III: As the EP&R CIO suggested, we have updated our report to refer
      to the Logistics Information Management System as LIMS III, not LIMS.
      Although we evaluated how effectively LIMS III supports the logistics
      management process, we did not follow up and report on recommendations
      from prior audits regarding logistics data accuracy.

      Prior GAO and OIG Assessments: We disagree with the EP&R CIO’s
      statement that our references to past OIG reports, without referring to the
      current status of these reports, may give an inaccurate and unfair picture of IT
      status. We referenced prior GAO and OIG assessments only to provide
      background information and a context for conducting our audit. While the
      scope of our review did not include following up on all findings and
      recommendations from these prior assessments, it should be recognized that
      many of the concerns they raised, such as NEMIS reliability, usability, and
      training, remain issues today.

      ADD Functionality: We recognize that the Automated Deployment Database
      has a “check-in” process and a date/time stamp for when personnel call
      headquarters to advise of their arrivals at disaster sites. However, as we
      discuss in our report, personnel do not always follow the prescribed check-in
      procedures and information on their arrivals may not be entered into ADD to
      measure deployment time. Inconsistent check-in not only affects the accuracy
      of ADD reports, but also may leave response and recovery personnel at risk
      when their whereabouts are unknown.

      LIMS III Tracking: We recognize, as the EP&R CIO has indicated, that
      LIMS III was not designed to track commodities such as ice and water. We
      are concerned that the lack of a system or a formal requirement to track such
      commodities not only does not meet requirements of the National Incident
      Management System, but also creates problems for response and recovery
      personnel. As we discuss in our report, property officers must resort to
      spreadsheets, manual processes, or other inconsistent and nonintegrated means
      to track commodities, resulting in wasted time, effort, and resources. We
      encourage FEMA’s ongoing efforts to develop a total asset visibility system to
      track commodities and expect that such a system will provide FEMA with
      improved ability to track and measure distribution of assets across federal,
      state, and local agencies.



Emergency Preparedness and Response Could Better Integrate Information Technology
                      with Incident Response and Recovery


                                  Page 41
      Response and Recovery Performance Metrics: We agree that EP&R systems
      are not entirely owned by the CIO’s office and recognize that the program
      offices, which are the systems users, also need to help identify effective
      performance measures. The EP&R CIO’s comments affirm the need for
      improved ability to collect performance data from IT systems.
      Recommendation 1 of our report addresses the need for improved
      performance measurement.

      Departmentwide Initiatives: The additional information that the EP&R CIO
      provided on FEMA’s efforts to coordinate its IT activities with
      departmentwide initiatives affirms issues and recommendations we raise in
      our report. Where appropriate, we have revised the report to reflect the
      ongoing coordination activities.

      IT Guidance and Training: Again, the EP&R CIO’s comments affirm and
      supplement the information we provided on IT guidance and training in our
      report. Like the EP&R CIO, we expect that having regional IT staff report
      directly to his office will enhance efforts to define training requirements,
      integrate and improve training materials, and better communicate guidance
      and training availability.

      Database Integration: The EP&R CIO commented that our discussion under
      the report heading “Databases Are Not Fully Integrated” should be omitted
      because it is not relevant to either database integration or mission application
      integration. In response, we have revised the heading and clarified the
      subsequent discussion concerning the need to centralize NEMIS servers.

      Logistics Integration: The EP&R CIO stated that our example regarding
      logistics coordination is partially incorrect in that not all of the tractor trailers
      came from the FEMA Logistics Centers. Our report does not say that all of
      the trucks came from the FEMA logistics center. Indeed, where the trucks
      came from is not germane to the issue that we raise. Rather, we are concerned
      that, although FEMA is responsible for coordinating federal incident response,
      the arrival of all of the trucks at a single staging area was uncoordinated and
      personnel were not on hand to receive the supplies in a timely manner.

      NEMIS Access and Security: We recognize that cyber security requirements
      limit the ability of state employees to access NEMIS from their desktops and
      have revised our report accordingly.

      System Capacity to Handle Increased Workload: We disagree with the EP&R
      CIO’s comments regarding the ability of FEMA’s IT systems to handle

Emergency Preparedness and Response Could Better Integrate Information Technology
                      with Incident Response and Recovery


                                  Page 42
      increased workloads during the 2004 hurricanes. As previously stated, while
      we recognize that FEMA was able to get through the hurricanes, this
      accomplishment was not without significant IT and user problems. Like the
      EP&R CIO, we acknowledge that much of the credit can be attributed to the
      efforts of IT and recovery staff who worked heroically during the hurricanes
      to sustain operations and register and assist disaster victims. We also
      appreciate the EP&R CIO’s challenges and lack of resources to carry out
      operations on a day-to-day basis. However, as we recommend in our report,
      EP&R needs to place priority on gathering requirements and analyzing
      alternatives to determine the most appropriate technology needed to meet
      business needs.

      System Reporting: Although the EP&R CIO stated that LIMS III provides
      substantial reporting capabilities, the cited section of our report discusses
      NEMIS and IFMIS challenges and does not mention LIMS III. We have
      revised the topic sentence for the section to indicate reporting challenges with
      some, but not all, of FEMA’s systems.

      Need for Updated NEMIS Requirements and Alternative Analysis: The
      EP&R CIO affirms the responsibility of management at all levels to recognize
      and act on problems such as the need to update NEMIS requirements and
      conduct an alternatives analysis. We look forward to the results of the EP&R
      CIO’s efforts to solicit broad stakeholder involvement in the e-NEMIS
      requirements definition process. Additionally, we have revised our report to
      incorporate the EP&R CIO’s acknowledgement of the need to integrate and
      update systems such as IFMIS and FEMA’s deployment systems.

      Funding for NEMIS Upgrade: In response to the EP&R CIO’s comment, we
      have revised our report, deleting the statement that program offices were
      reluctant to fund development of an online registration capability for NEMIS.




Emergency Preparedness and Response Could Better Integrate Information Technology
                      with Incident Response and Recovery


                                  Page 43
      Appendix A
      Scope and Methodology




      As background for this audit, we researched and reviewed IT laws,
      regulations, and other federal guidance applicable to the EP&R directorate.
      We researched and reviewed prior OIG, Government Accountability Office,
      and other reports relating to EP&R IT to identify relevant findings and
      recommendations. We also reviewed information available on the DHS and
      FEMA websites about disaster response and recovery initiatives.

      We met with EP&R management officials and staff to review the directorate’s
      approach to responding to and recovering from terrorist attacks, major
      disasters, and other domestic emergencies. These officials discussed EP&R’s
      organization, roles, responsibilities, operations, and systems for response and
      recovery activities. Additionally, these officials discussed EP&R’s strategic
      planning process and provided copies of DHS, FEMA, and EP&R CIO
      strategic, performance, and operational plans. We reviewed the plans to
      determine alignment of the various organizations’ goals, objectives, and
      performance measures.

      We visited EP&R field offices and state government organizations to assess
      IT user guidance and support. Emergency management officials, IT support
      staff, and system users at the following locations discussed the effectiveness
      of EP&R’s guidance and processes for responding to and recovering from
      disaster incidents:

      EP&R Headquarters
        • CIO officials and IT support staff
        • Mt. Weather personnel
        • Response Directorate officials
        • Recovery Directorate officials

      FEMA Regions
        • Region II—New York, New York
        • Region IV—Atlanta, Georgia
        • Region IX—Oakland, California

      State Emergency Management Organizations
          • New York Public Security Office and New York State Emergency
              Management Office—Albany, New York
          • State Office of Emergency Services—Sacramento, California
          • Georgia Emergency Management Agency—Atlanta, Georgia
          • Maryland Emergency Management Agency—Reisterstown, Maryland
          • State Homeland Security Offices—Albany, New York

Emergency Preparedness and Response Could Better Integrate Information Technology
                      with Incident Response and Recovery


                                  Page 44
      Appendix A
      Scope and Methodology




 These officials, as well as representatives of the following organizations,
 helped us accomplish our objective of determining how effectively IT systems
 supported EP&R’s response and recovery mission.

  National Processing Service Centers
     • Hyattsville, Maryland
     • Pasadena, California

  Disaster Field Offices
     • Burlington, New Jersey
     • Albany, New York
     • Orlando, Florida

 Disaster Recovery Center
     • Orlando, Florida

 Mobile Emergency Response Service
    • Thomasville, Georgia

 These stakeholders told us about both existing and proposed EP&R systems as
 well as ad hoc systems they created to meet their needs. Lastly, we met with
 officials from the eMerge2 program to discuss EP&R’s participation in this effort
 and to gain a better understanding of what the program will do for DHS.

 We limited our audit to EP&R’s unclassified systems and processes related to the
 response and recovery mission, and did not focus on sensitive systems or
 information. In addition, we did not test the data in the systems reviewed for
 accuracy and completeness. Throughout the course of this audit, we provided
 monthly updates to the EP&R CIO on progress and discussed key issues
 identified by the stakeholders.

 We performed our work according to generally accepted government auditing
 standards. The principal OIG points of contact for this audit are Frank Deffer,
 Assistant Inspector General, Information Technology Audits and Sondra
 McCauley, Director, Information Management Division. Other major
 contributors are listed in Appendix C.




Emergency Preparedness and Response Could Better Integrate Information Technology
                      with Incident Response and Recovery


                                  Page 45
   Appendix B
   Management Comments




Emergency Preparedness and Response Could Better Integrate Information Technology
                      with Incident Response and Recovery


                                  Page 46
             Appendix B
             Management Comments




Now on
Page 2




Now on
Pages
6-12




Now on
Page 2,
8, 9




          Emergency Preparedness and Response Could Better Integrate Information Technology
                                with Incident Response and Recovery


                                            Page 47
         Appendix B
         Management Comments




Now on
Page 7




Now on
Page 7
and 8




Now on
Page 8




     Emergency Preparedness and Response Could Better Integrate Information Technology
                           with Incident Response and Recovery


                                       Page 48
         Appendix B
         Management Comments




Now on
Page 9



Now on
Page 9




     Emergency Preparedness and Response Could Better Integrate Information Technology
                           with Incident Response and Recovery


                                       Page 49
   Appendix B
   Management Comments




Emergency Preparedness and Response Could Better Integrate Information Technology
                      with Incident Response and Recovery


                                  Page 50
         Appendix B
         Management Comments




Now on
Page 2




Now on
Page 2




     Emergency Preparedness and Response Could Better Integrate Information Technology
                           with Incident Response and Recovery


                                       Page 51
         Appendix B
         Management Comments




Now on
Pages
19 and
20




     Emergency Preparedness and Response Could Better Integrate Information Technology
                           with Incident Response and Recovery


                                       Page 52
          Appendix B
          Management Comments




Now on
Page 34




Now on
Page 5




      Emergency Preparedness and Response Could Better Integrate Information Technology
                            with Incident Response and Recovery


                                        Page 53
          Appendix B
          Management Comments




Now on
Page 5


Now on
Page 6




Now on
Page 6




Now on
Page 10




Now on
Pages
10 and
13




      Emergency Preparedness and Response Could Better Integrate Information Technology
                            with Incident Response and Recovery


                                        Page 54
          Appendix B
          Management Comments




Now on
Page 11




Now on
Page 14




      Emergency Preparedness and Response Could Better Integrate Information Technology
                            with Incident Response and Recovery


                                        Page 55
          Appendix B
          Management Comments




Now on
Page 14




Now on
Page 19




Now on
Page 20




Now on
Pages
21 and
22




      Emergency Preparedness and Response Could Better Integrate Information Technology
                            with Incident Response and Recovery


                                        Page 56
          Appendix B
          Management Comments




Now on
Page 22




Now on
Page 22



Now on
Page 23




Now on
Page 26




      Emergency Preparedness and Response Could Better Integrate Information Technology
                            with Incident Response and Recovery


                                        Page 57
          Appendix B
          Management Comments




Now on
Pages
26-29
and 10


Now on
Pages
29-32




Now on
Page 32




      Emergency Preparedness and Response Could Better Integrate Information Technology
                            with Incident Response and Recovery


                                        Page 58
      Appendix C
      Major Report Contributors




      Information Management Division

      Sondra McCauley, Director
      Richard Harsche, Audit Manager
      Meghan Sanborn, Auditor
      Steven Staats, Auditor




Emergency Preparedness and Response Could Better Integrate Information Technology
                      with Incident Response and Recovery


                                  Page 59
      Appendix D
      Report Distribution




      Department of Homeland Security

      Secretary
      Deputy Secretary
      Chief of Staff
      EP&R Under Secretary
      General Counsel
      Executive Secretariat
      DHS CIO
      EP&R CIO
      DHS Office of Security
      DHS Audit Liaison
      EP&R Audit Liaison
      DHS Public Affairs
      DHS Legislative Affairs
      FEMA Public Affairs
      FEMA Congressional Affairs

      Office of Management and Budget

      Homeland Bureau Chief
      DHS OIG Budget Examiner

      Congress

      Congressional Oversight and Appropriations Committees, as appropriate




Emergency Preparedness and Response Could Better Integrate Information Technology
                      with Incident Response and Recovery


                                  Page 60
Additional Information and Copies

To obtain additional copies of this report, call the Office of Inspector General
(OIG) at (202) 254-4100, fax your request to (202) 254-4285, or visit the OIG
web site at www.dhs.gov.

OIG Hotline

To report alleged fraud, waste, abuse or mismanagement, or any other kind
of criminal or noncriminal misconduct relative to department programs or
operations, call the OIG Hotline at 1-800-323-8603; write to Department of
Homeland Security, Washington, DC 20528, Attn: Office of Inspector
General, Investigations Division – Hotline. The OIG seeks to protect the
identity of each writer and caller.
